<html>
<title> - AVIATION AND THE ENVIRONMENT: NOISE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  AVIATION AND THE ENVIRONMENT: NOISE

=======================================================================

                                (110-83)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
38-567                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Burleson, Carl E., Director, Office of Environment and Energy, 
  Federal Aviation Administration................................     8
Crowley, Hon. Joseph, a Representative in Congress from the State 
  of New York....................................................     2
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     8
Epstein, Dr. Alan, Vice President, Environment and Technology, 
  Pratt and Whitney, United Technologies Corporation.............     8
McCarthy, Hon. Carolyn, a Representative in Congress from the 
  State of New York..............................................     4
McElroy, Deborah C., Senior Vice President, Government Affairs, 
  Airports Council International-North America...................     8
McGrann, Dennis M., Executive Director, N.O.I.S.E., National 
  Organization to Insure a Sound-Controlled Environment..........     8
Mulder, Hon. Arlene J., Mayor of Arlington Heights and 
  Chairperson, O'Hare Noise Compatibility Commission.............     8
Tragale, Ralph, Manager, Government and Community Relations, Port 
  Authority of New York and New Jersey...........................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    30
Costello, Hon. Jerry F., of Illinois.............................    31
Crowley, Hon. Joseph, of New York................................    37
Graves, Hon. Sam, of Missouri....................................    40
Matsui, Hon. Doris O., of California.............................    42
McCarthy, Hon. Carolyn, of New York..............................    44
Mitchell, Hon. Harry E., of Arizona..............................    48
Oberstar, Hon. James L., of Minnesota............................    54
Petri, Hon. Thomas E., of Wisconsin..............................    60
Westmoreland, Hon. Lynn A., of Georgia...........................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Burleson, Carl E.................................................    66
Dillingham, Gerald L.............................................    83
Epstein, Alan H..................................................   125
McElroy, Deborah.................................................   129
McGrann, Dennis..................................................   141
Mulder, Hon. Arlene J............................................   148
Tragale, Ralph F.................................................   156

                       SUBMISSIONS FOR THE RECORD

Burleson, Carl E., Director, Office of Environment and Energy, 
  Federal Aviation Administration:

  Response to question from Rep. Hall............................    24
  Responses to questions from Rep. Petri.........................    80
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, responses to questions 
  from Rep. Petri................................................   121
McElroy, Deborah C., Senior Vice President, Government Affairs, 
  Airports Council International-North America, responses to 
  questions from Rep. Petri......................................   139
Mulder, Hon. Arlene J., Mayor of Arlington Heights and 
  Chairperson, O'Hare Noise Compatibility Commission, letter to 
  Rep. Petri.....................................................   154
Tragale, Ralph, Manager, Government and Community Relations, Port 
  Authority of New York and New Jersey, responses to questions 
  from Rep. Crowley..............................................   160

                        ADDITIONS TO THE RECORD

Cargo Airline Association, Stephen A. Alterman, President, 
  written statement..............................................   163
City of College Park, Georgia, Charles E. Phillips, Sr., Mayor, 
  Pro Tem, written statement.....................................   167
Sierra Club, Dickson J. Hingson, Ph.D.:

  Letter to the Committee on Commerce, Science, and 
    Transportation, United States Senate, in response to the 
    Oversight Hearing on the Department of Transportation on 
    October 18, 2007 (dated Obtober 21, 2007)....................   172
  Letter to the Federal Aviation Administration in response to 
    Draft 2000 Aviation Noise Abatement Policy (dated October 21, 
    2000)........................................................   178

[GRAPHIC] [TIFF OMITTED] T8567.001

[GRAPHIC] [TIFF OMITTED] T8567.002

[GRAPHIC] [TIFF OMITTED] T8567.003

[GRAPHIC] [TIFF OMITTED] T8567.004

[GRAPHIC] [TIFF OMITTED] T8567.005

[GRAPHIC] [TIFF OMITTED] T8567.006

[GRAPHIC] [TIFF OMITTED] T8567.007

[GRAPHIC] [TIFF OMITTED] T8567.008



             HEARING ON AVIATION AND THE ENVIRONMENT: NOISE

                              ----------                              


                      Wednesday, October 24, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:03 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. I think 
Members and others may be held up outside; there is a little 
demonstration going on down the hall. But I am sure Members 
will come in as soon as they can.
    The Subcommittee will come to order. The Chair will ask all 
Members, staff, and everyone to turn off electronic devices or 
put them on vibrate.
    The Subcommittee is meeting today to hear testimony on 
Aviation and the Environment: Noise. I have a statement which I 
will submit for the record so that we can go to our two 
colleagues on the first panel.
    I welcome everyone here today on the issue of airport noise 
issues. The purpose of the hearing is to learn more about noise 
issues near our airports and what communities have done and 
what they are doing to address the problem.
    Over 750 million people traveled by air in 2006; one 
billion people are expected to travel by air in the year 2015.
    As airports struggle to increase capacity to meet demands, 
they must reach a balance between the need to expand with the 
quality of life of the people who live near and around our 
airports.
    I have, as I said, a full statement that I will submit for 
the record so we can expedite matters and go directly to our 
first panel of witnesses. But, before I do, and before I 
recognize Mr. Petri, the Ranking Member, for his opening 
statement or any comments, I ask unanimous consent to allow two 
weeks for all Members to revise and extend their remarks and to 
permit the submission of additional statements and materials by 
Members and witnesses. Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I also ask 
consent to submit my full statement for the record.
    Let me only say this is obviously an important hearing that 
concerns many of our constituents, especially those who are 
affected by changes in the level of noise because of changing 
flight patterns and so on.
    Overall, it is my own experience, and I think the 
experience of this Committee, that the broad picture is that 
the situation has gotten somewhat better. Sound levels are 
going down. We will be hearing from Pratt and Whitney about the 
improvements that are being made. But that being said, it 
doesn't solve the problem for someone who confronts an increase 
in noise because of changing flight patterns, and I look 
forward to hearing from our colleagues about the concerns of 
their constituents in that regard.
    Mr. Costello. I thank the Ranking Member for his comments 
and would recognize our first panel of witnesses, two 
colleagues from the New York delegation. We will ask our 
colleagues to offer their testimony, and traditionally we have 
not asked Members who are testifying before this Subcommittee 
to wait around and answer questions. We realize that you have 
busy schedules, as we do. In fact, I just left a markup to be 
here, and I have to go back to that markup in a few minutes.
    But, at this time, the Chair would recognize the Honorable 
Joseph Crowley, who is a Member of Congress, of course, from 
the New York Seventh District, and Carolyn McCarthy, who is a 
Member of Congress from New York's Fourth District.
    At this time, the Chair would recognize Mr. Crowley for his 
testimony.

TESTIMONY OF THE HONORABLE JOSEPH CROWLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Crowley. Thank you, Mr. Chairman.
    Chairman Costello and Ranking Member Petri, Members of the 
Subcommittee, thank you for conducting this hearing.
    In my district, airport noise is a daily burden shouldered 
by my constituents, and I appreciate your attentiveness to this 
important issue.
    As you know, I represent Queens and the Bronx, New York, 
and we are home to LaGuardia Airport, one of the Nation's 
busiest airports, and the busiest and most congested airspace 
in the United States.
    If you looked at a map of the area, you would probably 
focus on the fact that LaGuardia Airport is surrounded by 
Flushing Bay on one side and the Grand Central Parkway on the 
other. It is, however, also in the middle of several densely 
populated communities, including Woodside, Astoria, East 
Elmhurst, Jackson Heights in Queens, and many parts of the 
Bronx as well.
    While the airport is a central part of our community--
helping support New York's economy by shuttling visitors and 
busy people in and out of the region--its presence does 
negatively impact on the day-to-day life for tens of thousands 
of my constituents.
    In particular, the air pollution resulting from road 
traffic and airplanes at LaGuardia is a severe problem, as is 
the noise pollution caused by the airport and its related 
facilities.
    That is why, working with the Environmental Protection 
Agency and New York University, I commissioned a study to 
determine the effects of airport and airport-related noise on 
my constituents.
    The results of this report concluded that some residents 
living near LaGuardia were exposed to noise levels nearly four 
times greater, with some levels exceeding the 65 decibel 
threshold set by the Federal Aviation Administration, than 
those experienced by residents not living within close 
proximity to the airport
    Twenty-four hour time histories also found that residents 
living within the footprint of LaGuardia were exposed to noise 
levels in excess of the levels New York City code stipulates 
for sleeping areas from the house of 10:00 p.m. to 7:00 a.m., 
and more than 55 percent of the people living within the flight 
path were reportedly bothered by aircraft noise.
    Similarly, homes surrounding JFK Airport were subjected to 
comparable levels of noise as those around LaGuardia, and I 
would expect they would be comparable to any homes and 
communities surrounding our Nation's major airports.
    These findings are particularly noteworthy because noise is 
not just an annoyance or inconvenience. It is hazardous to 
one's health and well-being, and it diminishes an individual's 
quality of life.
    The World Health Organization found that airport noise has 
been linked to cardiovascular disease. And the Federal 
Interagency Committee on Aviation Noise, in September 200 
report, concluded, and I quote: ``Research on the effects of 
aircraft noise on children's learning suggests that aircraft 
noise can interfere with learning in the following areas: 
reading, motivation, language and speak acquisition, and 
memory. The strongest findings to date are in the area of 
reading, where more than 20 studies have shown that children in 
noise impact zones are negatively impacted and affected by 
aircraft.''
    The FAA has recognized the need to mitigate airport noise 
and has created a volunteer process whereby airport authorities 
may undertake a Part 150 study to determine the extent of 
airport noise on a community and then, as a follow-up, 
establish a plan for remediation of that noise, which could 
include residential soundproofing.
    Yet, despite the overwhelming evidence that airport noise 
can severely impact the health and well-being of individuals, 
particularly our children, the Port Authority of New York and 
New Jersey has never undertaken or even attempted to conduct a 
Part 150 study or noise mitigation effort for the homes in the 
neighborhoods surrounding LaGuardia or its other airports: JFK, 
Newark, Teterboro, or Stewart Airports.
    In fact, in the Vision 100 Century of Aviation 
Reauthorization Act, this Committee directed, at my request, 
that the Port Authority of New York and New Jersey begin a Part 
150 study and residential soundproofing. The Committee's 
bipartisan language I won't read, but will submit for the 
record in my testimony.
    Unfortunately, the Port authority ignored the explicit 
direction of this Committee and still has not taken any action 
to soundproof residences in my area, which is why I am here 
today.
    It is my hope this public forum and the further engagement 
of this Committee will encourage the Port Authority of New York 
and New Jersey to finally pursue the necessary course of 
action.
    As this Committee knows, only 17 of the top 50 busiest 
airports have not submitted a Part 150 study, and three of 
these 17 airports--LaGuardia, JFK, and Newark--are operated by 
one entity, the Port Authority of New York and New Jersey.
    In fact, other large airports have successfully conducted 
Part 150 studies and soundproofed homes. Of particular note is 
Los Angeles International Airport. LAX completed its study and 
is soundproofing the homes in its footprint.
    It has been a major success story, with the major concern 
being the length of time to fully implement and mitigate all 
the homes for noise.
    If LAX can undertake this project, why can't the Port 
Authority of New York and New Jersey?
    I have worked diligently with this Committee's leadership, 
both under former Chairman Don Young and now under our Chairman 
Costello and full Chair Oberstar, on the issue of airport 
noise. I have appreciated your past efforts and support.
    I hope you will agree that the time has come for 
soundproofing and other noise mitigation efforts to get 
underway at the homes surrounding LaGuardia Airport and the 
other four airports under the Port Authority's control.
    And if today's hearing does not compel the Port Authority 
to act, I am going to ask that the FAA Reauthorization plans, 
which is working its way through the chambers--including the 
Ways and Means Committee on which I sit--include language 
strengthening the laws regarding soundproofing of homes and 
places of worship, and mandating soundproofing and other forms 
of noise abatement for people living in the footprints of our 
Nation's largest and busiest airports.
    Airport and airport-related noise is a real issue of 
concern to my constituents, both those living around an airport 
like my constituents or those in the flight path like my 
colleague, Mrs. McCarthy's.
    I sincerely appreciate and thank Chairman Oberstar and you, 
Chairman Costello and Ranking Member Petri, for holding this 
hearing, for inviting me to testify, and for inviting the Port 
Authority of New York and New Jersey to testify. I look forward 
to continuing to work with you on this matter. I thank you 
again.
    Mr. Costello. The Chair thanks you, Mr. Crowley, for your 
thoughtful testimony and for your leadership on this issue.
    The Chair now recognizes the gentlelady from the Fourth 
District from New York, Congresswoman McCarthy.

 TESTIMONY OF THE HONORABLE CAROLYN MCCARTHY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mrs. McCarthy. Thank you. I would like to thank Chairman 
Costello, Ranking Member Petri for holding this hearing today 
and allowing me the opportunity to testify before the 
Transportation and Infrastructure Subcommittee on Aviation. A 
lot of my testimony goes along the same lines as my colleague, 
Mr. Crowley. We share the same problems. I hope this hearing 
will allow us to explore the effects that airplane noise has on 
communities near busy airports, and I hope that we can continue 
to work together in order to find solutions that will reduce 
airplane noise.
    I represent the Fourth Congressional District of New York. 
My district is located in Nassau County, a densely populated 
area adjacent to John F. Kennedy International Airport. Due to 
the close proximity to JFK, many communities in my district are 
severely affected by noise from airplanes landing and taking 
off from JFK, including the Village of Floral Park.
    I receive hundreds of calls, letters, and e-mails regarding 
airplane noise. This issue affects thousands of my constituents 
on a daily basis. The Village of Floral Park and the Town-
Village Aircraft Safety and Noise Abatement Committee, which 
represents several communities in my district, have led the 
effort to reduce airplane noise. This is who I represent in my 
testimony today.
    The communities surrounding JFK have always experienced 
airplane noise from planes flying in and out of JFK. The 
residents were fully aware of this when they purchased their 
homes in the area. However, due to several factors, there has 
been a gradual increase in the volume of air traffic and 
airplane noise since 2000. The result is that it is 
significantly more difficult to maintain a decent quality of 
life in these communities.
    But the concerns extend beyond quality of life. Airplane 
noise not only affects the quality of life of residents, but 
can also have dangerous effects on their health. The extended 
exposure to the loud DNL levels not only affects the hearing of 
adults and children, but has also been linked to increased 
blood pressure.
    Airplane noise has also been found to have an effect on 
children's education, as my colleague, Joe Crowley, has said. 
Children who are exposed to prolonged periods of airplane noise 
learn to read at a slower pace than those not exposed to the 
noise. These factors come into play every day for the residents 
of Floral Park and the surrounding communities. We know that 
the DNL levels are high, but there has not been a study to 
determine how serious the health risks are for residents.
    Despite these quality of life and health concerns, airplane 
noise and traffic increase in 2000 at JFK, Congress passed 
legislation in 2000 to phase out slot restrictions at JFK. The 
full impact of this legislation occurred on January 1st, 2007, 
when the restrictions on the hourly departures and arrivals 
were completely eliminated. In the first four months of this 
year, the volume of air traffic has increased by 26.4 percent. 
As a result, the FAA authorized JFK to utilize three of its 
four runways for longer periods than was historically 
permitted, thus limiting the number and length of the breaks 
between airplane noise flying over the affected communities.
    The elimination of the limits on departures or arrivals 
from JFK has forced the airport and New York TRACON to deviate 
from the letter of agreement, which has a significant impact on 
the areas surrounding JFK. Airplane noise can be heard at all 
hours of the day and into the night. Flights over these 
communities can continue for more than 16 hours a day, with 
airplanes departing and landing as often as 30 to 60 seconds 
apart. Residents of these communities have reported up to 115 
planes per hour during peak time.
    One solution to the increase in traffic and an increase in 
airplane noise is to reinstate the limits on departures and 
arrivals from JFK. Short of this, we should at least begin 
discussing how JFK and airline carriers can come to an 
agreement to reduce air traffic. A reduction of air traffic to 
and from JFK will reduce airplane noise, as well as delaying 
congestion. The idea is also supported by President Bush, who 
recently sent a letter to Secretary Peters, asking he to confer 
with the members of the aviation industry and regulations to 
find a solution to reduce the air traffic congestion and 
delays.
    A small number of communities bear the enormous burden of 
airplane noise from increased air traffic in order to benefit 
the larger region, and, as a result, the Federal Government 
should offer their assistance. The air traffic going in and out 
of JFK brings significant benefits to Long Island and to New 
York. The accessibility that JFK and LaGuardia airports provide 
to the New York area allows individuals to conveniently conduct 
business, visit family, or simply take a vacation. This is good 
for New York and this is also good for Long Island. However, 
the cost of the increase in traffic at JFK includes flight 
delays, congestion, and almost constant airplane noise that 
plagues all of our communities.
    The Federal Government should increase and expand the 
assistance available under the Airport Improvement Program for 
soundproofing. The Airport Improvement Program has done a great 
job of ensuring students living in these affected areas have a 
quieter learning environment by soundproofing schools with 
noise levels above 65 DNLs. This funding should be increased 
and made available to soundproof additional facilities.
    Lastly, JFK was excluded from the FAA's noise mitigation 
study under the New York/New Jersey/Philadelphia Airspace 
Redesign. Although the main goal of the Airspace Redesign is to 
reduce delays and increase efficiency, reducing airplane noise 
should also be a priority. Airplane noise over the affected 
areas is directly related to the amount of the air traffic to 
and from JFK. Reduction in delays and an increase in efficiency 
will only make more slots available for departures and arrivals 
at JFK, resulting in an increase in air traffic airplane noise. 
If a noise mitigation study had been conducted by the FAA for 
JFK, it may have been possible to identify migration measures 
to decrease airplane noise. I urge the FAA to conduct a noise 
mitigation study on the areas surrounding JFK under the 
Airspace Redesign.
    I thank you again for the opportunity to testify. I look 
forward to working with the Committee and with my colleague, 
Mr. Crowley, to reduce airplane noise over the communities 
surrounding JFK and LaGuardia. With that, I thank you for this 
opportunity to testify, and my full testimony has been handed 
in.
    Mr. Costello. The Chair thanks you, and let me mention, 
concerning the AIP program and the reauthorization bill, we 
have substantially increased the authorization for the AIP 
program, as you suggested in your testimony. I believe the 
amount is $15.8 billion over the course of the bill. So we are 
anxiously awaiting the other side of the Capitol to take action 
on their bill so that we can go to conference and, in fact, 
produce a bill that provides increased funding to our airports.
    The Subcommittee thanks both of you not only for your 
testimony here today. As Congressman Crowley pointed out, this 
hearing is a result of a request that he and other Members of 
the New York delegation made, as well as Mr. Hall on our 
Subcommittee, who is on his way over here. So we thank you. We 
assure you that the Subcommittee will continue to work with you 
and work with the delegation on this important issue. Thank 
you.
    The Chair would now ask the second panel to come forward, 
and as you are moving forward, I will begin with introductions.
    The first witness on the second panel is Carl Burleson, who 
is the Director of the Office of Environment and Energy for the 
FAA; Dr. Gerald Dillingham, the Director of Physical 
Infrastructure Issues for the U.S. Government Accountability 
Office; Ralph Tragale, who is the Manager of Government and 
Community Relations for the Port Authority of New York and New 
Jersey; Deborah McElroy, the Senior Vice President, Government 
Affairs, for the Airports Council International-North America; 
the Honorable Arlene Mulder, who is the Mayor of Arlington 
Heights and the Chairperson of the O'Hare Noise Compatibility 
Commission; Dr. Alan Epstein, the Vice President of Environment 
and Technology, Pratt and Whitney, United Technologies 
Corporation; and Mr. Dennis McGrann, who is the Executive 
Director of the National Organization to Insure a Sound-
Controlled Environment.
    With that, before we recognize our witnesses and receive 
their testimony, the gentleman from Tennessee, the former 
Chairman of this Subcommittee, would like to make a brief 
statement
    Mr. Duncan. Mr. Chairman, thank you. Ordinarily, I wouldn't 
interrupt the proceedings like this, but I have got an 
appointment in just a few minutes with former Congressman Bill 
Lipinski, and I need to leave here in just a few minutes.
    I did want to say just a couple of things. Sometimes we 
have trouble admitting that great progress has been made in a 
particular area, and perhaps that is because people within the 
government working on a particular problem always want more 
funding and companies outside of government who are working on 
the same problem want more money as well.
    But according to our briefing papers, the FAA says that 
today jets are 75 percent quieter today than earlier jets. We 
are also told that there has been an over 90 percent reduction 
in the number of people affected by aircraft noise from 1975 to 
2005. A lot of that has come about because of tremendous 
interest in this problem and tremendous pressure from Chairman 
Oberstar when he chaired this Subcommittee for many years, and 
also work by the Full Committee.
    We are also told in the briefing papers that, since 1982, 
the AIP has provided $5 billion for noise abatement projects 
and PFC charges have provided another $2.4 billion for these 
projects since 1982. So we have spent an awful lot of money in 
this area.
    Now, I have noticed in past years that some people who live 
close to airports seem to develop superhuman hearing. I 
remember one time, when this Subcommittee was touring the 
Dallas Airport, we were told that one man had the airport on 
his speed dial and had called several thousands of times to 
complain about aircraft noise; and, of course, the Dallas 
Airport is the second largest airport, geographically, in the 
Country, so many other airports really have worse problems in 
this area, or had them, than the Dallas Airport.
    But whenever we have done scientific testing in the homes 
of some of these people who have complained the most, we have 
found that the decibel levels just weren't there.
    Now, all I am trying to get at is this: There probably are 
a few places where we still have a serious problem with noise, 
but we have made tremendous progress and we have spent many, 
many billions of dollars on this problem in the last few years, 
and perhaps it may be time to consider that some of these 
billions may be better spent in other ways at most airports in 
this Country.
    But I thank you for calling this hearing to look into this 
and thank you for letting me make these comments at this time.
    Mr. Costello. The Chair thanks the gentleman and at this 
time will recognize our first witness for his testimony.
    Ladies and gentlemen, as you know, we will ask all of you 
to submit your entire statement into the record and we would 
ask you to summarize your testimony in five minutes or less.
    The Chair now recognizes Mr. Burleson for his testimony.

TESTIMONY OF CARL E. BURLESON, DIRECTOR, OFFICE OF ENVIRONMENT 
    AND ENERGY, FEDERAL AVIATION ADMINISTRATION; DR. GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
   GOVERNMENT ACCOUNTABILITY OFFICE; RALPH TRAGALE, MANAGER, 
GOVERNMENT AND COMMUNITY RELATIONS, PORT AUTHORITY OF NEW YORK 
  AND NEW JERSEY; DEBORAH C. MCELROY, SENIOR VICE PRESIDENT, 
   GOVERNMENT AFFAIRS, AIRPORTS COUNCIL INTERNATIONAL-NORTH 
  AMERICA; THE HONORABLE ARLENE J. MULDER, MAYOR OF ARLINGTON 
HEIGHTS AND CHAIRPERSON, O'HARE NOISE COMPATIBILITY COMMISSION; 
 DR. ALAN EPSTEIN, VICE PRESIDENT, ENVIRONMENT AND TECHNOLOGY, 
 PRATT AND WHITNEY, UNITED TECHNOLOGIES CORPORATION; DENNIS M. 
MCGRANN, EXECUTIVE DIRECTOR, N.O.I.S.E., NATIONAL ORGANIZATION 
            TO INSURE A SOUND-CONTROLLED ENVIRONMENT

    Mr. Burleson. Chairman Costello, Congressman Petri, Members 
of the Subcommittee, I am pleased to appear before you this 
morning to address an issue that is central to any discussion 
of aviation and the environment: aircraft noise.
    This is not a new issue. In 2003, we celebrated the 
hundredth anniversary of the Wright Brothers flight and the 
opening of the aviation age; 2003 also marked the 92nd 
anniversary of the first editorial complaining about aircraft 
noise. In AERO magazine in 1911, an editorial on the fitting of 
silencers noted ``that the tremendous racket that is present 
associated with the aero plane plays a considerable part in 
prejudicing the public against these machines.''
    The good news is we have overcome enough of the public 
prejudice to have 2 billion people fly worldwide each year, 
more than the number of people that populated the earth in the 
early 20th century. The challenge, of course, is that aircraft 
noise remains the most significant environmental issue in the 
U.S. system today, as it seeks to add capacity to meet demand 
for air travel by our citizens.
    We have made major strides in lessening aircraft noise 
impacts in the United States over the past few decades. As 
Congressman Duncan just noted, in the 30-year period between 
1975 and 2005, passenger enplanements grew from a little over 
200 million to more than 700 million, while exposure to 
significant aircraft noise declined more than 90 percent, from 
over 7 million Americans in 1975, to now about a half million.
    Quieter aircraft and engine technology made possible by 
Federal and industry investments and research, development, and 
deployment has produced the bulk, about 90 percent, of this 
noise reduction. These technology advances have been 
complimented by noise abatement and flight procedures, 
compatible land use efforts, and noise compatibility programs.
    The FAA has strongly supported noise compatibility programs 
at nearly 300 airports in the U.S. with both technical and 
financial assistance. Primarily through the process known as 
the Part 150 program, the FAA has provided about $5 billion 
since 1982 in airport improvement grants and nearly $3 billion 
in passenger facility charges since 1990. So that totals $8 
billion in financial assistance for airports for noise 
projects.
    Now, two years ago, in a report to Congress based on input 
from a wide section of stakeholders, we laid out a national 
vision and strategy for tackling noise, as well as other key 
aviation environmental issues. This vision has become the basis 
of the environmental approach at the heart of the NextGen plan. 
The national vision includes achieving absolute reduction in 
the numbers of people exposed to significant aircraft noise 
even as aviation grows. It reflects the reality that despite 
impressive past achievements, communities and citizens remain 
concerned about aircraft noise, and we must continue to take 
steps to address these impacts.
    To tackle this challenge will require a robust and 
multifaceted approach that develops and deploys new 
technologies, takes advantage of operational advances, and 
includes effective policies and investments. Frankly, the 
challenges going forward may prove more difficult as we cope 
not just with traffic growth, but the need to find solutions 
not just for noise, but simultaneously for air quality and 
climate effects. We don't have the luxury of considering just 
one aviation environmental impact in isolation.
    In the near term, we want to accelerate the ability to 
employ operational procedures, such as continuous descent 
arrivals or CDA, to lessen aviation's environmental footprint. 
CDA is one of these win-win strategies that gets you less 
noise, less emissions, and less fuel burn, as well as saving 
time. We are pleased by this Committee's support in the 
aviation reauthorization bill, of provisions that would help us 
enhance deployment of operational flights like CDA, as well as 
a provision that would expand AIP eligibility to include 
environmental assessment of noise abatement flight procedures 
like this.
    It is clear we are not going to be able to repeat our past 
success in reducing noise without advances in technology. 
Proposals in this Committee's aviation reauthorization bill, 
such as the consortium to develop lower energy emissions and 
noise technology, or CLEEN, and the pilot program for 
demonstrating promising technologies, would offer FAA, as well 
as other partners, the ability to accelerate the development of 
new noise and emissions technologies.
    In closing, it is clear that the public remains concerned 
about aircraft noise impacts, and this concern represents a key 
constraint on the future growth of aviation. We have no single 
or simple revolutionary solution at this point. What we do have 
is a clear vision of what the Next Generation system needs to 
achieve in environmental improvements and a commitment to 
advance those improvements in technology, operations, and 
policy. Success will require a partnership and shared 
responsibility, and the FAA is committed to working with all 
stakeholders to manage the National Aviation System in a sound 
environmental manner.
    Mr. Chairman, that completes my prepared statement. I would 
be willing to take questions at the proper time. Thank you.
    Mr. Costello. The Chair thanks you for your testimony and 
now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Mr. Petri, Mr. 
Duncan, Members of the Subcommittee. My testimony this morning 
addresses three questions: first, what are the key factors that 
affect the level of aviation noise exposure for communities? 
Second, what is the status of efforts to address the impacts of 
aviation noise? And, finally, what are the major challenges and 
next steps for reducing the effects of aviation noise?
    Our research has shown that three key factors affect the 
level of aviation noise for communities. The first and primary 
factor is the operation of jet aircraft engines. It is also the 
case that airframes can be a significant source of noise, and 
with the current trend in engine noise reduction, the relative 
effect of airframe noise could increase.
    The second factor is local government decisions that allow 
communities to expand near airports. FAA has issued guidance 
that discourages residential uses in areas that are exposed to 
significant levels of noise. However, some communities face 
strong demographic and economic pressures that can lead to 
incompatible development. The end result is that some of the 
gains in reducing community exposure to noise are being eroded 
by incompatible land development.
    The third factor is aircraft flight paths, including 
changes in those flight paths which are intended to improve 
system safety and efficiency or that result from diversions. 
Flight path changes can expose some previously unaffected 
communities to aircraft noise.
    With regard to our second question, numerous efforts are 
under way to address the impact of aviation noise. First, a 
more stringent noise standard is being implemented as new 
aircraft are being designed and manufactured. According to FAA, 
the current standard resulted in a 32 percent reduction in the 
number of people exposed to significant noise levels. The new 
standards, known as Stage 4, will be 10 decibels lower than the 
prior standard.
    There are, however, some considerations that may affect the 
impact of the new standard on reducing noise level. For 
example, many of the aircraft in the current fleet already meet 
the new standard, and it could be at least a decade before the 
entire fleet is Stage 4 compliant. Furthermore, further 
increases in air traffic may offset the reductions in noise 
levels that result from these quieter aircraft.
    A second type of effort is noise mitigation measures. These 
are typically carried out by airports and funded primarily 
through FAA's Part 150 noise compatibility program. Since its 
inception in 1982, nearly 300 airports have participated in the 
Part 150 program, and these airports have invested over $8 
billion in AIP and PFC funds for noise-related purposes.
    Another type of effort is the noise research that is 
conducted and sponsored by FAA and NASA. This type of research 
has contributed to the development of technologies that have 
significantly reduced aviation noise, such as quieter engines 
and airframes. But some stakeholders are concerned that 
declines in Federal funding may have slowed the pace of 
government-initiated and sponsored research and, in turn, this 
may delay the next significant technological leap for reducing 
aviation noise.
    The implementation of NextGen is another effort with 
significant possibilities for mitigating both noise and 
emissions. For example, systems such as ADSB will allow more 
precise control of aircrafts during approach and descent, 
thereby enabling the use of procedures such as CDA, which will 
reduce communities' exposure to both aviation noise and 
emissions.
    Finally, some airports are making efforts beyond what is 
required to respond to community concerns. These airports are 
using such techniques as supplemental metrics to identify the 
effects of exposure to aviation noise, mitigation beyond the 65 
DNL, and expanded community outreach and education programs.
    Turning to our last question on the major challenges and 
next steps, Mr. Chairman, we think that, in the future, as in 
the past, technological advances through R&D will be the key to 
reducing aviation noise. However, given the government's 
overall fiscal condition and other national priorities, 
additional Federal funding for noise reduction may be difficult 
to obtain. It may require some tradeoffs and new initiatives. 
The environmental and related provisions in FAA's 
reauthorization bill, such as the CLEEN program and the 
environmental mitigation pilot program, are the kinds of 
initiatives that can directly address this issue.
    For the airlines, equipping with NextGen technologies that 
will enable operations that could reduce community exposure to 
aviation noise will also be challenging. FAA estimates the cost 
of equipping the fleet to take full advantage of NextGen will 
be about $14 billion. Consideration might be given to ways to 
incentivize early equipage and training for pilots.
    Of course, there is no silver bullet for aviation noise. 
Even with quieter aircraft and more efficient NextGen 
procedures, aviation noise is expected to persist around 
airports, even if the so-called silent aircraft comes into the 
fleet some time in the 2030 time frame. As a very important 
next step in addressing the challenge, local and Federal 
officials will need to improve their cooperation and efforts to 
deter incompatible land use and regulations.
    Mr. Chairman and Members of the Subcommittee, in the final 
analysis, the national airspace is an essential part of the 
Nation's critical infrastructure, global economic 
competitiveness and national security. Ensuring that this 
national system can operate safely and efficiently will require 
compromise and cooperation among the various levels of 
government and the balancing of legitimate community concerns 
and environmental issues with the strategic needs of the 
Country. Thank you.
    Mr. Costello. Thank you, Dr. Dillingham.
    You probably all heard the bells ring. We have two recorded 
votes on the Floor, but we will proceed to take Mr. Tragale's 
testimony before we recess to go over and vote, and then we 
will return immediately.
    Mr. Tragale.
    Mr. Tragale. Thank you. Chairman Costello, Congressman 
Petri, Congressman Duncan, other Members of the Subcommittee, 
good morning. My name is Ralph Tragale and I am the Manager of 
Government and Community Relations for the Port Authority of 
New York and New Jersey. I would like to thank you for 
organizing this hearing and giving us the opportunity to talk 
about how we have handled noise at our airports. While my 
comments are brief, they will demonstrate the significant 
results, I think, that our noise programs have achieved in the 
New York/New Jersey area.
    The Port Authority is a bi-State pubic agency that was 
created by the two States, with the consent of Congress, and we 
operate many of the major transportation facilities in the New 
York/New Jersey area, including things like the George 
Washington Bridge, the Holland and Lincoln Tunnel, several 
bridges that connect Staten Island and New Jersey. We also own 
and formerly operated the World Trade Center site in Lower 
Manhattan.
    More importantly, the agency operates four commercial 
airports--John F. Kennedy, Newark Liberty, LaGuardia, Teterboro 
Airport--and those airports are responsible for generating $62 
billion in annual economic activity. Just last year we 
accommodated over 104 million annual air passengers, which is a 
huge impact to the economy. Those operations account for 
375,000 jobs in the New York/New Jersey area.
    In addition, on November 1st, the Port Authority will take 
over operation of Stewart International Airport. We are very 
excited about that and, at this time, I would like to 
personally thank Congressman Hall, even though he is not here, 
for his help in helping us acquire the airport, as well as 
Congressman Hinchey.
    Regarding the issue at hand, the Port Authority first dealt 
with noise in 1959. The Port Authority--I don't know if you are 
aware--established the first aviation noise policy in the 
world. We have a departure noise limit at our airports, 112 PND 
(perceived noise decibel), and we feel that is important to 
mention because it was that rule, that predated all the noise 
standards in the world, that really led aircraft engine 
manufacturers to go into a serious research and development 
stage to build quiet engine technology. At that time, every 
aircraft in the world wanted to come to New York at some time. 
It was that important to them that they made the investment to 
build quiet engine technology, and I think the Port Authority 
led the way in that regard.
    Over the next more than 40 years, the Port Authority 
developed several major noise mitigation programs. All of those 
programs working with local communities to develop zoning 
requirements, run-up restrictions, flight abatement procedures, 
voluntary curfews and other things, and it was those programs 
that led FAA to develop the Part 150 study. So the Part 150 
study is a voluntary Federal program and it really has all the 
elements of the Port Authority existing noise programs, as I 
stated. The only thing that we don't do is the residential 
soundproofing. However, I must state that we have a significant 
commitment to school soundproofing. To date ,we have 78 schools 
in our noise program, and we have committed over $400 million 
in funding to soundproof those schools.
    To get back to the issue of noise and the people impacted, 
in the 1970s there was over 2 million people in the noise 
contour of our airports, and right now it is less than 100,000. 
So we believe, together with the efforts of the industry, the 
airlines, and certainly Congress, we have been able to make a 
tremendous effort to reduce noise, and that is a 95 percent 
decrease in the number of people impacted by noise.
    However, obviously, we won't be satisfied until we have 
full noise compatibility between our airports and our 
neighbors. That is very important to us and that is why we 
worked hard with FAA on their Airspace Redesign and other 
procedures to try and address this need.
    Obviously, the million dollar question is why don't we have 
a Part 150 study, so I will just address that. As I noted 
earlier, it is a voluntary Federal program; it is not a 
mandated program. And as I also stated, it is developed mostly 
after our existing noise abatement programs. So we have all the 
elements of it except for the residential piece. We felt that 
it was more important to soundproof schools and, as I said, we 
have invested $400 million in that. So we stand ready to work 
with Congressman Crowley, Congresswoman McCarthy, and other 
Members of our delegation, as well as this Subcommittee, to 
address any future requirements on us.
    At this time, I would just like to say thank you very much. 
I would like to thank the Committee and the Committee staff for 
their help in this hearing. Thank you very much.
    Mr. Costello. The Chair thanks you.
    The Chair will announce that the Subcommittee will stand in 
recess for about 20 minutes, and we will come immediately back 
after the second vote and hear the testimony of the rest of the 
panel.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order and the 
Chair now recognizes Ms. McElroy for her testimony.
    Ms. McElroy. Thank you, Chairman Costello, Members of the 
Subcommittee. We appreciate the opportunity to participate in 
this important hearing. My name is Debby McElroy, and I serve 
as Executive Vice President, Policy and External Affairs for 
Airports Council International-North America. Our member 
airports enplane more than 95 percent of the domestic and 
virtually all of the international airline passenger and cargo 
traffic in North America.
    Continued robust growth for the aviation industry is 
predicted by both government and industry analysts, increasing 
attention on the environmental impacts of aircraft and airport 
operations. Airport directors well understand this concern and, 
for decades, have taken proactive steps to better understand 
and mitigate those impacts, especially aviation noise in their 
local communities.
    Additionally, since much of the major source of aviation-
related noise, aircraft, is outside an individual airport's 
control, ACI and its members are working collaboratively to 
influence international, Federal, and State and local 
organizations, as well as working with manufacturers and 
airlines to continue to address this important issue.
    While, over the last three decades, aircraft engines have 
become quieter, reducing the overall exposure of aircraft 
noise, there are still many older noisy aircraft in the U.S. 
fleet, and aircraft noise continues to be an issue. Many 
airport directors will tell you that, despite their best 
efforts, including working with local communities to manage the 
push for continued residential development near airports, 
airport noise remains at the forefront of their agenda. That is 
why we have been disappointed that the International Civil 
Aviation Organization negotiations have not yielded more 
stringent noise standards for newly certificated aircraft. As 
Dr. Dillingham stated earlier, it could be more than a decade 
before an appreciable change is realized.
    Airport operators continue to focus on reducing the 
aviation noise impacting local communities, implementing FAA 
directed noise abatement runway use and flight tracks, programs 
for ground run-ups, noise management programs, airport 
sponsored pilot awareness or fly quiet programs, sound 
insulation programs, and local land use actions.
    Now, while much has been done, airports are continuing to 
enhance the mitigation of noise primarily through the Airport 
Noise Compatibility Program, often referred to as Part 150, 
which promotes comprehensive airport noise planning and 
mitigation. Airport operators decide to undertake a Part 150 
study when doing so promises to further reduce aircraft noise 
exposure to jurisdictions within the airport's environment. As 
part of this voluntary program, FAA has approved both AIP 
grants and PFC funding for noise mitigation to assist local 
communities. Such assistance, as discussed earlier, includes 
soundproofing residences, schools, and hospitals; conducting 
land use and zoning studies; as well as designing noise 
abatement procedures.
    It is important to note that not all airports use the Part 
150 process. Several, like the Port Authority, already have 
long-established community planning processes that parallel the 
150 requirements. Other airports already enjoy a high degree of 
community support for their noise mitigation programs and have 
determined that a Part 150 study is not required.
    Airports across the Country also work with local citizens, 
governments, and elected officials to develop procedures and 
programs to reduce noise. You will shortly hear from Mayor 
Mulder, who will detail the process in place at the O'Hare 
Noise Compatibility Commission. San Francisco's Community 
Roundtable is another example. The airport's Fly Quiet Program 
is a locally-based initiative that promotes a participatory 
approach in complying with noise abatement procedures by 
grading an airline's performance. As part of the program, San 
Francisco staff generates a Fly Quiet Report which provides 
airline scores on the noise mitigation procedures. The overall 
scores are then made available to the public.
    There is also San Jose's Neighborhood-Focused Acoustical 
Treatment Program, which identifies residences and other 
sensitive living areas. At these locations, sound insulation 
improvements are installed at no cost to the proper owner.
    ACI-NA applauds the Subcommittee and the full T&I Committee 
for its hard work on H.R. 2881. We especially commend you for 
your efforts to mitigate noise by phasing out aircraft weighing 
less than 75,000 pounds that do not meet Stage 3 requirements 
and the establishment of an environmental mitigation pilot 
program. Continued research is also critical, as you recognize, 
and we appreciate your efforts with the CLEEN Engine and 
Airframe Technology program, as well as increasing ACRP 
funding, which provides research funds to study programs to 
mitigate the impact of noise.
    We also appreciate the addition of AIP eligibility for 
completion of the environmental review and assessment 
activities necessary to implement flight procedures included in 
an airport's Part 150 program. We would ask that you consider 
expanding this to cover flight procedures not yet included in 
the airport's Part 150 program. This provision would allow AIP 
funding so that an airport, which believes implementation of 
the procedures would significantly benefit the community, 
wouldn't have to wait to amend their program. That way, we 
could work with the airlines and the FAA to more expeditiously 
implement those procedures.
    We also would ask that the Part 161 program be re-examined 
to provide additional options for airports to solve noise 
problems with reasonable non-discriminatory operation 
restrictions.
    In closing, ACI and its member airports thank you for the 
opportunity to share our views, and we look forward to working 
with you as you address this important issue.
    Mr. Costello. We thank you for your testimony.
    The Chair now recognizes Mayor Mulder.
    Ms. Mulder. Chairman Costello and Ranking Member Petri and 
Members of the Subcommittee, I want to say good morning, or 
afternoon at this point. It is certainly a privilege to b with 
you and share our story with you.
    I am here today representing the O'Hare Noise Compatibility 
Commission, which is a consortium of communities and school 
districts in the O'Hare area that works on meaningful methods 
of reducing the impact of aircraft noise around O'Hare 
International Airport.
    I also am the Mayor of the Village of Arlington Heights, a 
community of nearly 80,000 residents located directly northwest 
of O'Hare International Airport, and I personally live under 
the most frequently used longest runway.
    As a community in close proximity to O'Hare, Arlington 
Heights has been concerned about the impact, and its negative 
impact, particularly, of aircraft noise for many years. In 
1991, citizens began, in earnest, making criticisms and taking 
an active role. As a result, we were the first suburb to create 
a noise committee and initiated the first sound measuring 
study. In that study, we learned a great deal and we researched 
other airports.
    As a result of that, in 1996, Mayor Daley extended an 
invitation to the suburbs around O'Hare, after extensive 
fighting between the neighbors of O'Hare and the airport. It 
was at that time that the Village of Arlington Heights, along 
with others, chose to join this commission.
    By way of background, the Compatibility Commission, which I 
will refer to as ONCC, was officially formed, as I said, in 
1996, and we have to commend Mayor Daley and his vision for 
trying to create a mechanism for constructive ways for the 
suburbs and school districts to work more effectively with the 
Department of Aviation, as well as FAA and the air traffic 
controllers. We also meet with the airline pilots and other 
stakeholders in the aviation industry in looking for ways to 
curb the negative impact.
    As a result of Mayor Richard M. Daley's vision and ongoing 
commitment--which I must stress is extremely important, I 
believe, in a major city like Chicago--that all the members 
work together and all of our meetings are open to the public, 
and we are very proud of the accomplishments, collaboration, 
not confrontation, that we have in our existence of more than a 
decade.
    We do our work and we choose to do it in a board room, not 
a courtroom. The members of ONCC are locally elected officials 
and appointed representatives of the suburban communities. 
These members are not paid for the service to this Commission, 
but they do live and work in the suburbs and are affected by 
aircraft noise, and want to answer to their constituents.
    The 42 municipal and school district members of the 
Commission strive to balance the regional economic engine that 
O'Hare is and the quality of life issues that are vital to the 
residents living near the airport. ONCC also understands that 
reducing aircraft noise cannot be accomplished with the simple 
flip of a switch; it is an evolutionary process that results in 
subtle day-to-day progress and, over time, produces significant 
measurable results.
    There are three standing committees. One is the technical 
committee where we research processes that you have heard from 
Mr. Burleson before, CDA and other means of actually changing 
the flight patterns that can reduce noise. The other two are 
for schools and residential sound insulation. That is looking 
at points of impact, as opposed to the source, which the 
technical committee views.
    By the end of 2006 program year, the O'Hare Residential 
Sound Insulation Program will have insulated more than 6,100 
homes at the average cost of $30,000 per home, for a total of 
$180 million. The School Sound Insulation Program, the world's 
largest, to date has $285 million having been spent on 
effectively soundproofing 114 schools.
    The Residential and School Sound Insulation Programs are 
currently funded through FAA airport improvement program grants 
at the total of 80 percent, with the City of Chicago using PFCs 
for the additional 20 percent. FAA is now the primary funded of 
O'Hare Residential Sound Insulation, as the FAA required the 
mitigation as part of the record of decision in the O'Hare 
Modernization Program, referred to as the OMP, for the first 
time, 5900 single-family homes that would be sound insulated 
from 1996 to 2004, the City of Chicago, in that first group, 
funded that program entirely using PFCs.
    The ONCC is looking at this new program with part of the 
OMP as actually having the opportunity to insulate homes before 
those residents have the impact of the new opened runways.
    O'Hare Compatibility Commission is also looking at how to 
mitigate noise by using land planning, and thanks to the very 
innovative program put together by the FAA, there are grants 
available that communities can use as incentive to look at 
rezoning and having more compatible use where air paths will be 
utilized.
    As the City of Chicago continues its aggressive noise 
mitigation efforts at O'Hare and Midway, the ONCC supports the 
City of Chicago's efforts to obtain substantial increase in the 
AIP Noise Set Aside, as well as the FAA discretionary grants 
for Midway and O'Hare sound insulation projects. We commend the 
Aviation Committee and the House of Representatives for 
significant AIP dollars increase in the new reauthorization 
bill.
    ONCC also agrees with the position of many airports across 
the Country, including Chicago airport system, to give the 
airports the ability to increase the passenger facility charge 
rate ceiling and provide the airports with the flexibility of 
setting that amount.
    What all the members of ONCC, including the City of 
Chicago, who sits with us and has one vote, as all of us do, 
share is the concern for the impact of noise on residents. All 
of the members, regardless of their individual positions on the 
O'Hare Modernization Program, are dedicated to finding the most 
effective ways to reduce aircraft noise.
    The ONCC is now working to renew the enthusiasm in this 
mandate, given the fact that we can make a difference. The ONCC 
strongly commends FAA administration for thoroughly defining 
environmental goals in the Next Generation Air Transportation 
System. Through NextGen, we realize that the FAA will be able 
to substantially address the impacts of air traffic growth by 
increasing the national air capacity system while addressing 
the quality of life impacts at the same time.
    FAA is able to implement the new procedure by merging 
aircraft navigation capabilities, which was alluded to prior to 
my comments, so I won't repeat them. But the initiatives like 
NextGen, ONCC an continue advocating for additional funding for 
technological approaches and the research for advanced flight 
track procedures like RNAV.
    NextGen also addresses another cutting edge approach, and 
that is the CDA. ONCC highly commends, again, the FAA for 
working towards the implementation of these new technologies. 
The Aviation and Environment Report, which I believe all of you 
received, is an extensive work that I had the honor to 
participate in. This ha certainly come from many, many highly 
educated and technical people, and I think FAA has shown new 
aggressiveness and innovativeness.
    ONCC asks that Congress continue to support FAA and the 
groups that promote open dialogue, accessibility to information 
and forums such as we have done in O'Hare. I have with me an 
article from Minneapolis where lawsuits are still hindering the 
growth of aviation. It is imperative that we work and sit at 
the table together.
    I want to thank you today. Sound insulation has been the 
most effective way to reach people who have negative impact. 
They do come to the table and listen. Thank you.
    Mr. Costello. Mayor, we thank you for your testimony.
    The Chair now recognizes Dr. Epstein.
    Mr. Epstein. Mr. Costello and Members of the Subcommittee, 
thank you for the opportunity to address aircraft noise, one of 
the most significant challenges facing U.S. commercial 
aviation. I am Alan Epstein from Pratt and Whitney, which has 
been producing dependable engines for over 80 years. I am here 
to speak about Pratt and Whitney's innovative technology, which 
will dramatically reduce community noise and emissions.
    Fifty years ago, the first commercial engines were designed 
with little regard to noise. Since their sound levels were like 
being next to speakers at a rock concert, they quickly proved 
unacceptable. In the early 1960s we introduced the first turbo 
fans, which reduced noise. Today, three engine generations 
later, we have reduced the number of people impacted by 
aircraft noise by 95 percent. However, our national goal should 
be to eliminate aircraft noise as a community concern.
    Aircraft design has always involved compromise between low 
noise and low cost. Recently, Pratt and Whitney has developed 
Geared Turbofan engine technology to rebalance this compromise. 
We can now achieve both low cost and very low noise. We are 
very excited about our new Geared Turbofan engine for 70 to 200 
passenger aircraft. This engine reduces fuel burn and CO2 by 
more than 12 percent. It also reduces noise by almost 20 
decibels, below Stage 4. This is like the difference between 
standing near a running garbage disposal and listening to the 
sound of my voice.
    Two weeks ago, we announced that the Geared Turbofan will 
power the new Mitsubishi Regional Jet, which will enter service 
in about six years. This technology can be applied from the 
smallest regional jets to the largest wide bodies. To take full 
advantage of the Geared Turbofan very low noise, we must also 
modernize the Nation's air traffic control system.
    The current constraints of the overburdened system do not 
allow even exceptionally quiet aircraft to deviate from 
existing traffic patterns. For example, an aircraft flying to 
the east coast from LAX must fly west to gain altitude over the 
ocean to reduce noise before it crosses over the city. An 
advanced Geared Turbofan powered airplane would be quiet enough 
to take off directly to the east. This would save an average of 
12 minutes of flight time, which reduces fuel, cost, and 
emissions. But unless we modernize air traffic control, 
airlines will not be permitted such freedom.
    Recently, much has been written about climate change and 
the role that aviation may play. We at Pratt and Whitney 
believe that environmental goals such as reduced CO2 can, and 
must, be achieved without compromising the low noise the 
communities deserve. A Geared Turbofan simultaneously offers 
the lowest fuel burn, noise, and cost. An advanced engine of 
this type will deliver the low CO2 of giant supersonic 
propellers without their inherent noise penalties. In fact, 
this so-called open rotor would be a large step backwards in 
noise compared to modern airplanes.
    Aerospace is this Nation's largest manufacturing export. We 
have done so well because of superior products. But advanced 
technology is expensive. Our Geared Turbofan incorporates 20 
years of research, more than $1 billion of Pratt and Whitney 
investment. We built on foundational technologies developed in 
partnership with NASA. The U.S. is the world leader in aviation 
because of historical research partnership of government, 
university, and industry.
    Recently, I was at an aviation conference where EU 
investment plans were presented. Frankly, I am worried. Just as 
other nations have increased their investment, U.S. funding has 
dropped sharply. Therefore, we strongly support such 
initiatives as the proposed FAA CLEEN program. However, even 
with CLEEN, our Nation's investment in basic aviation 
technology is only a tiny fraction of what it was 20 years ago. 
We must do more at FAA and NASA.
    In summary, it is important to take an integrated approach 
to reducing aviation's impact on the environment. Pratt and 
Whitney's Geared Turbofan and the modern air traffic control 
system will make a real difference.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Mr. Costello. Thank you, Dr. Epstein.
    The Chair now recognizes Mr. McGrann.
    Mr. McGrann. Chairman Costello, Ranking Member Petri, 
Members of the Committee, my name is Dennis McGrann, and I am 
the Executive Director of the National Organization to Insure a 
Sound-Controlled Environment. NOISE is an affiliate of the 
National League of Cities and, for over 37 years, has served as 
America's preeminent community voice on aviation noise issues. 
We are compromised of locally elected officials, including city 
council members, mayors, county supervisors and commissioners 
from communities across the United States adjacent to major 
commercial airports.
    Our members regularly participate in cooperative 
communications with airports and the aviation industry 
stakeholders, and we serve on a national level as Chair of the 
FAA's PARTNER advisory board, as well as a member of the FAA's 
Airport Compatibility Planning Committee and the Environmental 
Working Group.
    Mr. Chairman, on behalf of thousands of Americans in 
communities across the United States who live under the flyways 
of our major commercial aviation corridors and who deal with 
the environmental, health, and safety consequences associated 
with aviation noise, I would like to thank you for holding this 
hearing today and addressing these critical issues.
    I would also be remiss if I did not take time to thank Full 
Committee Chairman Oberstar for his years of dedicated service 
and attention to the challenges faced by communities and 
airport neighbors across the Country, and for addressing the 
issues of aviation noise. In 2003, Chairman Oberstar was 
awarded the NOISE Lifetime Achievement Award and Environmental 
Champion for his outstanding efforts in engaging local 
communities in aviation noise and related issues.
    Our members are communities that depend on airport 
neighbors for jobs, commerce, and our economic vitality. We 
recognize that the reality of aviation today requires that the 
system needs to increase capacity and that our airport 
neighbors need to grow to accommodate this expansion. We are, 
however, dedicated to addressing the issues faced by 
communities, who chronically with the adverse environmental and 
health impacts of excessive aviation noise, and continuously 
seek to engage all community and aviation stakeholders in a 
constructive dialogue to address these issues.
    I would like to call attention today to three key aspects 
that we believe are essential in pursuing meaningful route to 
effective management of noise issues: communication, research 
and development, and ongoing noise mitigation.
    First, the benefits of effective communication between 
communities and airports are clear. When airports and 
communities work together to meet the challenges of aviation 
noise, success follows. NOISE supports those efforts and 
advocates for communication and cooperation, as opposed to 
litigation and confrontation. We work to foster this dialogue 
and strive to bring together community leaders, airport 
operators, and government officials to establish a framework 
for empowerment of localities surrounding airports.
    As an example, for 25 years, the San Francisco 
International Airport Community Roundtable has fostered a 
successful airport/community interaction and involvement. 
Eighteen cities, the operator of San Francisco International 
Airport, the city and county of San Francisco, and the County 
of San Mateo comprise the roundtable, a voluntary public forum 
established in 1981 for discussion and implementation of noise 
mitigation strategies at San Francisco International Airport.
    Another development that will enhance communication is the 
PARTNER-sponsored Noisequest web site, designed to educate 
communities and airports on effective strategies and available 
tools which will help create a constructive dialogue when 
addressing noise issues and community concerns.
    We also urge continuation of a Vision 100 initiative that 
enables community empowerment, that is, the extension of 
authorization for Section 160, which authorizes the FAA to fund 
grants to States and local government units with the goal of 
reducing incompatible land use around large-and medium-sized 
airports. This program is a key step towards avoiding 
litigation and a useful tool for communities to use independent 
of the airport operator.
    A second important element to addressing these issues is a 
key to future funding of research and development efforts. 
There are numerous programs and technologies today being 
explored that hold great potential for the future with quieter 
skies. One example is PARTNER research and testing in the 
development of continuous descent approach (CDA), which allows 
for quieter landing procedures. We cannot stress enough the 
value of investment in CDA and other technologies, which may 
not only aid in the reduction of noise pollution, but decrease 
adverse environmental impacts of aviation on our land, air, and 
water.
    It is essential, while working to achieve better technology 
and community involvement, we must not abandon effective noise 
mitigation efforts. While we work towards this communication 
and technologies, we still must be aware and concerned with 
communities that have seen their neighborhood airports expand 
around them and who now deal daily with the resultant 
environmental consequences. Homes, schools, hospitals and 
churches in communities adjacent to major airports are often 
subject to the effects of excessive aviation noise. We need to 
promote noise mitigation, compatible land use planning, 
insulation programs, and other effective strategies in these 
communities to reduce noise and achieve NextGen's stated goal 
of a real reduction in the environmental impact of the national 
aviation system.
    Again, Mr. Chairman, I commend you and your colleagues for 
holding this hearing today, and I pledge that NOISE will 
continue to provide a vehicle for interaction between 
communities, airports, and national aviation stakeholders. 
Thank you.
    Mr. Costello. Thank you, Mr. McGrann.
    The Chair will go to and recognize the gentleman from 
Texas, Mr. Lampson, under the five minute rule.
    Mr. Lampson. Thank you, Mr. Chairman.
    I remember, several years ago, at a meeting in Europe, when 
the United States businesses were told they couldn't fly their 
airplanes in because we were using a hush kit, and they wanted 
us to have like what they were doing, engines that were 
designed to be quieter, and we had a significant fight over 
that but ultimately won, thank goodness. It seems to me that we 
ought to be doing whatever we can possibly do to drive the 
technology to get our airplanes flying more quietly, but what I 
want to know is: Who will get the money? Who will be doing that 
research, what agencies or wherever it will go? What kind of 
money do we need to be putting into it? And what can we 
reasonably expect as a possible solution? What is going to help 
drive quieter engines, is it bigger mufflers or what is it? Can 
you talk a little bit about that for me, please, anyone?
    Mr. Dillingham. I will take a shot at it first, Mr. 
Lampson. I think that, as in the past, research and development 
is probably going to be the path to the technological leap that 
you are talking about. I think that, as in the past, it will be 
NASA and FAA, FAA-sponsored research with universities and the 
private sector.
    One of the problems is that, over the last decade,--I think 
one of the panelists mentioned it this morning--is that the 
funding for aeronautical research has been declining, and a 
point that we mentioned in our statement with regard to NASA is 
that NASA has adjusted its research portfolio to focus on 
earlier stages of research, and it leaves what we are referring 
to as a research gap for things that are going to be available 
within the NextGen time frame. NASA would disagree with that, 
but based on the numbers that we have seen, we think that that 
is really a potential problem or is a problem now.
    But on the positive side, as many of the panelists have 
mentioned, some of the provisions in the FAA reauthorization 
will speak to closing that research gap.
    Mr. Lampson. When and if--and hopefully there will be--
money goes to NASA--NASA is already strapped significantly, and 
I was hoping that was where you would go with your answer, 
seeing how significant a supporter and proponent of what we 
have been getting out of our National Aeronautics and Space 
Administration--do we give them blanket money or direct it 
specifically? And, if so, how specific? Where do we put it? And 
what kind of money are we talking about? NASA is $2.8 billion 
down in its own budget now because--and I wasn't paying 
attention to the time, Mr. Chairman, I am sorry--because of the 
loss of the last shuttle and because of the storm in Florida 
doing damage. Do you have any advice there? And then I will 
quit. My apologies for going over.
    Mr. Burleson. Thank you, sir, for the question. I think the 
advice I would offer, Congressman, is the proposal that both 
the Administration put forward, and which the House has taken 
up in its legislation. I think this is really the way forward, 
which is to find a balanced approach which puts a correct 
emphasis on immediate mitigation through insulation; work on 
operational procedures to enhance the ability to reduce 
aviation's environmental footprint through those measures; and 
then to find a way to balance what is NASA's proper role. NASA 
has done exceptional work for this Country in foundational 
research, as my colleague from Pratt and Whitney described how 
much their engine has been based on longer term research of 
NASA; but then also filling this gap, which is, I think, the 
CLEEN proposal that we very strongly support. IT offers the 
ability to try to work more directly in a consortium with 
industry to accelerate the introduction of technology and noise 
and emissions that are at a certain stage of maturity, but need 
a way to get over this gap to commercialization.
    So I think that is really the way forward to having this 
balanced approach in several different ways.
    Mr. Lampson. Thank you very much. Anything that any of you 
would like to add to that for us, we would love to hear from 
you, regardless of what Committee it will be going to. Thank 
you very much.
    Thanks, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from Texas and 
recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. We have only 
a few minutes left because of votes on the Floor, and I reserve 
my time at this point.
    Mr. Costello. Very good. The Ranking Member reserves his 
time and the Chair now recognizes the gentleman from New York, 
Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. I will be quick.
    I would like to thank all of you for coming here today and 
thank Mr. Crowley and Ms. McCarthy, my colleagues in absentia, 
for further enlightening us on their situations living close to 
a major airport.
    Mr. Tragale, I have a number of constituents who are, on 
the one hand, looking forward to working with you and with the 
Port Authority on the expansion and growth of Stewart Airport, 
which we know is going to be an important economic contributor 
to our district and to the Hudson Valley, but at the same time 
are concerned about the noise level increasing as the number of 
flights increase. Can you tell me what specific action the Port 
Authority expects to take to diminish the effect of increased 
noise levels around Stewart?
    Mr. Tragale. Thank you, Congressman, for the question. If I 
may, you weren't here earlier, but I publicly thanked you for 
your efforts in helping us acquire Stewart, so thank you very 
much again.
    In terms of how we are going to work with the community at 
Stewart and in the Orange County community that you represent, 
I think one of the things that you have heard from people there 
is we already met with more people, even not operating an 
airport, than the existing airport operator ever has. So I 
think that is a testament to how we are going to go forward 
after November 1st.
    But also, last week we issued a letter, and your office was 
invited as well. We are establishing a citizens advisory panel 
at Stewart Airport to ensure that all entities in the community 
have a say in how we grow the airport together in a smart, 
efficient, and with a good quality of life as a key component 
of that. So we will be making all of our decisions in concert 
with you and with the other members of the community.
    Mr. Hall. I very much appreciate that, and thank you for 
that approach.
    Mr. Burleson, you mentioned in your testimony that Airspace 
Redesign is not without its impacts on some individuals and 
communities. Some of the communities in my district are in that 
situation, and I was curious if you or if the FAA intends to 
take any further action to mitigate the effect of their 
increased noise on these people in, specifically, I would say, 
the Pound Ridge area of Westchester and the Warwick area of 
Orange County, who feel that even before the redesign has been 
implemented, they perceive increased noise and see it on paper 
increasing further. Is there any way that you plan or do you 
plan to work with them to try to mitigate that?
    Mr. Burleson. Thank you, Congressman, for the question. I 
think if you look at the record of how the work has been 
undertaken in the Airspace Redesign, we clearly recognize that 
it is a difficult issue. As you try to modernize airspace, 
clearly, while the overall numbers show that there will be 
fewer people impacted by moderate noise, that doesn't mean 
everyone equally benefits as you make these changes. I think 
there have been a number of meetings and the FAA has tried to 
address this in a reasonable fashion.
    I think in terms of the specific areas that you are 
mentioning, I would defer to my air traffic colleagues. I will 
take your question to them and will get back to you.
    Mr. Hall. Thank you.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T8567.009
    
    Mr. Hall. Mr. Chairman, I will submit other questions in 
writing and yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes Ms. Norton.
    Before Ms. Norton is recognized, let me say that we have 
votes on the Floor again, and what the Chair intends to do is 
have Ms. Norton ask questions. I have two very quick questions, 
and then Mr. Petri and I have agreed that we will submit 
questions to you in writing, and we will adjourn the hearing 
prior to leaving to vote.
    Ms. Norton. Mr. Chairman, since you have to go to the Floor 
and, unfortunately, I do not, because this is a vote on a rule 
and not on the Committee as a whole, if you would like to go 
first, since I can remain afterwards and ask my questions.
    Mr. Costello. Very good.
    Mr. Tragale, two quick questions. One is the Port Authority 
does not participate in the 150 program. Can you tell us why?
    Mr. Tragale. Well, as I stated in my testimony, we feel 
that we have all the important components of the 150. The only 
component we don't have is residential soundproofing. But we 
feel that our significant commitment to the school 
soundproofing program, $400 million, certainly shows that we 
are committed to reducing the impact of noise.
    Mr. Costello. And the second part of the question is why 
has the Port Authority chosen not to soundproof the homes 
within the area.
    Mr. Tragale. Well, I think the easy answer to that is since 
the 1970s, when there were 2 million people in the contour, to 
today, what is less than 100,000, and over a 95 percent 
reduction in noise, people impacted by noise, we feel that we 
have more than achieved goals that any airport operator can 
point to, and spending money on homes that are no longer being 
impacted would seem to be an imprudent use of Federal dollars.
    Mr. Costello. Just a comment. Mayor, let me compliment you 
and Mayor Daley for the program that was implemented with the 
O'Hare modernization. Obviously, it has worked very well, from 
your testimony and what we have heard from others, and it, I 
think, is a model that can be used for other airports around 
the Nation.
    The Chair is now going to recognize Ms. Norton. As she 
correctly pointed out, she does not have to go to the Floor to 
vote, but at some point, some day, I hope she is in fact 
required to go to the Floor and vote with us. But I will 
recognize Ms. Norton and, before I do, thank all of our 
witnesses. After her questioning, the hearing will be 
adjourned. We thank you, and the Ranking Member, Mr. Petri and 
I will submit written questions to you. Thank you.
    The Chair now recognizes Ms. Norton.
    Ms. Norton. I thank you, Mr. Chairman. Any day now, we are 
going to get the vote bill through the Senate, it is going to 
come up again, and I am pleased to be able to vote in this 
Committee and to be a Member of this Committee.
    I suppose Mr. Burleson is the appropriate party to ask my 
question. In a real sense, my question, my information comes 
out of the region where I live and the district I represent. It 
is certainly germane to, and increasingly so, to areas around 
the Country. I would like Mr. Burleson, there is a brief 
mention on page 2 of your testimony suggesting a kind of 
tradeoff between noise and aviation emissions that comes with 
change in aircraft design and operations. I wish you would 
elaborate on that. I mean, noise is an environmental menace; 
the emissions are an environmental menace. What is the 
correlation you speak of? What is the tradeoff implied in your 
reference?
    Mr. Burleson. Thank you for the question, because I think 
this is really a core issue that we are going to have to 
grapple with going forward. Certainly, my colleague from Pratt 
and Whitney can elaborate some on the nature of engines, but 
when you design an engine and are trying to maximize certain 
characteristics, the nature of combustion is such that, if you 
want to reduce noise, especially in high bypass engines, you 
tend to burn at a higher temperature the fuel, which produces 
more nitrogen oxide.
    So, oftentimes, in the design of an engine, you may have a 
tradeoff between am I maximizing noise or am I trying to reduce 
nitrogen oxide. And then you would have a different impact in 
terms of am I reducing noise in a community or am I more 
concerned about how nitrogen oxide contributes to the local air 
quality impacts.
    Ms. Norton. I would really like to ask you about that 
tradeoff. You speak, I guess this is at page 4, about the 
reduction in what you call older aircraft. Are you saying that 
the newer aircraft emit more harmful carbons than the aircraft 
they have replaced?
    Mr. Burleson. No, Congresswoman. What I am trying to convey 
is, as you design engines, there are actually three design 
elements: one with noise, one with local air quality impacts, 
and then you also have fuel burn, which contributes to 
greenhouse gas emissions. So the good news is actually that 
noise and fuel burn tend to go on the same path, at least in 
the paths of engine design. Nitrogen oxide has been harder to 
reduce. So as aircraft have been produced and as stringent 
standards have been raised, this is just an issue that, both in 
the design of the aircraft, as well as the operation of the 
system, we have to take into account. For example, when you put 
in noise abatement procedures, you potentially have a more 
circuitous route to an airport, potentially burning more fuel, 
and that might, while it reduces noise, might actually produce 
more local emissions.
    So what we have tried to do or, actually, the path we are 
going down is, traditionally, people have looked at these 
issues in stovepipes; they have only looked at noise, they have 
only looked at local air quality or they have only looked at, 
now, greenhouse gas emissions. And what we have said is, and 
actually where we are spending money in the FAA, is building a 
set of models that helps us understand both that the design of 
the aircraft, how are these trade-offs made, as you are 
operating the aircraft in the system how are those trade-offs 
made. Most importantly, as we are thinking about policies and 
standards and market-based approaches or noise abatement and 
approaches like this, how do we design a set of approaches and 
policies that ensure that knowledge is made known to citizens 
and, as we are making national policy, how we deal with these 
different impacts.
    So, again, I think we are at the point of building those 
models and hopefully we are going to be able to provide a 
better understanding of what we need to do in each of these 
areas and, therefore, reach the targets more effectively and 
more cost-effectively.
    Ms. Norton. Well, I am not sure we were trying to do all 
three at the same time before. I mean, the interest in 
emissions may not have been as important as, for example, the 
complaints of regions about the kind of noise. And it is hard 
for me to believe, given the extraordinary change in engines 
and aircraft and aircraft noise, that if one was in fact 
focused, given the state of scientific knowledge today, the 
kind of work you have already done, that one could not in fact 
tackle all at the same time, because the notion of being left 
between a rock and a hard place is very disconcerting.
    Mr. Epstein. If I can respond to that, Congresswoman.
    Ms. Norton. Yes, please.
    Mr. Epstein. Conventional thinking has led us to a mature 
state of airplanes and engines, and the tradeoff that Mr. 
Burleson talked about is a very real one, and some forward-
thinking people in my company, almost two decades ago, said how 
do we get out of this. We always have to deliver products that 
give the most value to our customer, which is money, so they 
want the lowest cost engines and there has always been a 
tradeoff between cost and noise, and noise was the poor cousin.
    What we realized was that by innovative architecture, in 
this case putting the gear in, we could simultaneously give our 
customers the lowest cost, which is what they want, and the 
communities the lowest noise. As Mr. Burleson said, that is 
also the lowest fuel burn and CO2. So this is a discontinuous 
change in how we make airplane engines and I think it will have 
a big effect.
    Ms. Norton. So is your testimony that this innovation you 
are talking about, does in fact handle all three of these 
issues?
    Mr. Epstein. It improves all three at the same time, yes. 
We couldn't sell our engines if they didn't provide real value 
to our customers, and they are more than happy to get the 
additional benefits of low emissions and low noise.
    Ms. Norton. Well, of course, the industry is under such 
pressure about gas prices. It is hard to believe that that 
hasn't been first and foremost. Then, of course, in certain 
regions like this we have had change in aircraft which help to 
deal with the noise issue, which is a major problem in 
Virginia, major problem in the District. Then there have been 
ordinary changes involving, perhaps, use of more fuel, such as 
the change in vector, the change in direction of the aircraft. 
After 9/11 there was an immediate concern in the neighborhoods 
because the direction was changed when, for security reasons, 
there was a great concern about where planes fly. That has been 
since changed, and I think the planes can now fly in ways that 
mitigate the noise, because the complaints went away, and I 
think after people got used to, after we got used to where the 
risk was, we began to deal with it.
    But I am very concerned that the industry is really put in 
a very, very difficult position with the genuine need to deal 
with emissions of various kinds, with the cost of gasoline and 
unwillingness of the American people, frankly, to pay for more 
gas, to begin to conserve. Therefore, these prices are going to 
stay up. I am concerned about choices in research that, if 
choices have to be made, it is hard for me to believe that the 
choices are not going to be made consistent with where the most 
pressure is, and the pressure of fuel costs, particularly for 
this industry, is pretty overwhelming.
    And then, of course, we have great concern throughout the 
world about emissions, and we are trying to deal with that at 
the same time. Local communities probably are most vocal about 
noise, and here the industry has to deal with all three at the 
same time, so does the FAA. I suffer from believing, frankly, 
that particularly given the advances that have already been 
made through technology and science, I suffer from believing 
that we can in fact deal with all of this at the same time and 
that the need and the necessity to do so is going to drive it. 
And the real question for me is does Congress need to do 
anything to drive the unusual challenge of dealing with several 
different priorities at the same time.
    Yes.
    Ms. Mulder. Congresswoman, if I can just, from a community 
perspective, again, I know in my testimony I commended FAA 
because I believe that in the recent couple of years they have 
really become innovative with creating a center of excellence, 
and there are several layers of that. To give an example, we 
were very excited when United announced to us that they were 
going to be phasing out the 727s. I said, oh, you have heard 
that we don't like all that noise because those hush kits don't 
really work. And he looked at me and said, well, mayor, I wish 
I could say that, but it really is because we had to put three 
pilots in that plane, and in the replacement we only need two.
    So the airlines are pushed to look at cost. The other 
incentive is when our engine manufacturers are producing these 
more efficient engines, they use and burn less fuel. We have 
been talking about flight patterns that actually reduce the 
fuel burn as well. Money is in every one of these levels, and I 
have always told everyone in the industry you can't take away 
the hope of our residents that we are working on this. There is 
another thing that is going to help that is out there. And I 
think the center of excellences are bringing the different 
components of the aviation industry together, and if everyone 
does a little bit, the end product--and there are, I think, 
three diagrams at the end of my testimony that show the 
significant decline in our complaint calls to the airport 
increase in the number of insulations of homes and schools, and 
those are things that are telling our constituents that people 
care and they are working on it, and industry is working with 
the Government.
    So I think supporting FAA, supporting NASA, continue the 
research, we need to keep doing this, because when you look at 
other nations, there is significant subsidy for the airline, 
Airbus, for example, compared to Boeing, how much money they 
get from their governments. Airports get money from governments 
much more extensively than here in this Country. And it is such 
an important component of our transportation, it is essential, 
from a residential standpoint, to know that my Federal 
Government, Congress, is supporting FAA's creative and 
innovative new direction.
    Mr. Dillingham. Congresswoman Norton, if I could?
    Ms. Norton. Yes.
    Mr. Dillingham. You asked a question about what could 
Congress do, especially in terms of this sort of three-pronged 
effort. I think the Congress is already doing a lot through the 
AIP, the increase in the AIP fund; through some of the 
provisions that are currently in the reauthorization that is 
being considered. And I think, just to underscore what was just 
said, what has given us the most bang for our buck over time 
has been research and development, and there is, in fact, 
research and development going on in all three of those areas. 
What is unfortunate, though, is that the research and 
development dollars have been on a steady decline over the last 
decade or so, and to the extent that other nations, as 
mentioned earlier, are putting more into research and 
development, that is something that should be considered, is to 
keep the research and development monies flowing.
    But I think that the other nations of the world are 
approaching this noise and emissions issue the same way we are, 
in terms of trying to go at it three ways. So I think it is not 
going to be overnight. Noise is always going to be with us. 
Emissions are always going to be with us. But there is progress 
being made and there is a plan that goes out two decades to 
address these issues.
    Ms. Norton. Well, I appreciate your testimony. I must say 
the complexity of the challenges faced lead me to see the great 
hope, frankly, in R&D. I don't think you can simply, by 
regulation, say to the industry we want more of this, so do it. 
Not in this climate, not given this industry and the pressure 
it has been under and not given fuel costs. Now you have a 
whole new awakening of the American people to the importance of 
controlling emissions, to greening, to our responsibility.
    I would hope that we would use this new awakening to make 
people understand the complexity of it, that you have got to do 
several things at the same time or else, forgive me, you won't 
have to worry about noise, the glacier shall have melted and 
nobody will much be around to see or even hear the noise.
    The Chair indicated that he asked all of his questions. I 
want to thank you on his behalf and on behalf of the Committee 
for very important testimony, which I assure you will be used 
by this Subcommittee and taken to the Full Committee to see 
what we can do to speed an understanding of what is needed to 
meet the complex new challenges.
    Thank you very much. This panel is dismissed.
    [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8567.010
    
    [GRAPHIC] [TIFF OMITTED] T8567.011
    
    [GRAPHIC] [TIFF OMITTED] T8567.012
    
    [GRAPHIC] [TIFF OMITTED] T8567.013
    
    [GRAPHIC] [TIFF OMITTED] T8567.014
    
    [GRAPHIC] [TIFF OMITTED] T8567.015
    
    [GRAPHIC] [TIFF OMITTED] T8567.016
    
    [GRAPHIC] [TIFF OMITTED] T8567.017
    
    [GRAPHIC] [TIFF OMITTED] T8567.018
    
    [GRAPHIC] [TIFF OMITTED] T8567.019
    
    [GRAPHIC] [TIFF OMITTED] T8567.020
    
    [GRAPHIC] [TIFF OMITTED] T8567.021
    
    [GRAPHIC] [TIFF OMITTED] T8567.022
    
    [GRAPHIC] [TIFF OMITTED] T8567.023
    
    [GRAPHIC] [TIFF OMITTED] T8567.024
    
    [GRAPHIC] [TIFF OMITTED] T8567.025
    
    [GRAPHIC] [TIFF OMITTED] T8567.026
    
    [GRAPHIC] [TIFF OMITTED] T8567.027
    
    [GRAPHIC] [TIFF OMITTED] T8567.028
    
    [GRAPHIC] [TIFF OMITTED] T8567.029
    
    [GRAPHIC] [TIFF OMITTED] T8567.030
    
    [GRAPHIC] [TIFF OMITTED] T8567.031
    
    [GRAPHIC] [TIFF OMITTED] T8567.032
    
    [GRAPHIC] [TIFF OMITTED] T8567.033
    
    [GRAPHIC] [TIFF OMITTED] T8567.034
    
    [GRAPHIC] [TIFF OMITTED] T8567.035
    
    [GRAPHIC] [TIFF OMITTED] T8567.036
    
    [GRAPHIC] [TIFF OMITTED] T8567.037
    
    [GRAPHIC] [TIFF OMITTED] T8567.038
    
    [GRAPHIC] [TIFF OMITTED] T8567.039
    
    [GRAPHIC] [TIFF OMITTED] T8567.040
    
    [GRAPHIC] [TIFF OMITTED] T8567.041
    
    [GRAPHIC] [TIFF OMITTED] T8567.042
    
    [GRAPHIC] [TIFF OMITTED] T8567.043
    
    [GRAPHIC] [TIFF OMITTED] T8567.044
    
    [GRAPHIC] [TIFF OMITTED] T8567.045
    
    [GRAPHIC] [TIFF OMITTED] T8567.046
    
    [GRAPHIC] [TIFF OMITTED] T8567.047
    
    [GRAPHIC] [TIFF OMITTED] T8567.048
    
    [GRAPHIC] [TIFF OMITTED] T8567.049
    
    [GRAPHIC] [TIFF OMITTED] T8567.050
    
    [GRAPHIC] [TIFF OMITTED] T8567.051
    
    [GRAPHIC] [TIFF OMITTED] T8567.052
    
    [GRAPHIC] [TIFF OMITTED] T8567.053
    
    [GRAPHIC] [TIFF OMITTED] T8567.054
    
    [GRAPHIC] [TIFF OMITTED] T8567.055
    
    [GRAPHIC] [TIFF OMITTED] T8567.056
    
    [GRAPHIC] [TIFF OMITTED] T8567.057
    
    [GRAPHIC] [TIFF OMITTED] T8567.058
    
    [GRAPHIC] [TIFF OMITTED] T8567.059
    
    [GRAPHIC] [TIFF OMITTED] T8567.060
    
    [GRAPHIC] [TIFF OMITTED] T8567.061
    
    [GRAPHIC] [TIFF OMITTED] T8567.062
    
    [GRAPHIC] [TIFF OMITTED] T8567.063
    
    [GRAPHIC] [TIFF OMITTED] T8567.064
    
    [GRAPHIC] [TIFF OMITTED] T8567.065
    
    [GRAPHIC] [TIFF OMITTED] T8567.066
    
    [GRAPHIC] [TIFF OMITTED] T8567.067
    
    [GRAPHIC] [TIFF OMITTED] T8567.068
    
    [GRAPHIC] [TIFF OMITTED] T8567.069
    
    [GRAPHIC] [TIFF OMITTED] T8567.070
    
    [GRAPHIC] [TIFF OMITTED] T8567.071
    
    [GRAPHIC] [TIFF OMITTED] T8567.072
    
    [GRAPHIC] [TIFF OMITTED] T8567.073
    
    [GRAPHIC] [TIFF OMITTED] T8567.074
    
    [GRAPHIC] [TIFF OMITTED] T8567.075
    
    [GRAPHIC] [TIFF OMITTED] T8567.076
    
    [GRAPHIC] [TIFF OMITTED] T8567.077
    
    [GRAPHIC] [TIFF OMITTED] T8567.078
    
    [GRAPHIC] [TIFF OMITTED] T8567.079
    
    [GRAPHIC] [TIFF OMITTED] T8567.080
    
    [GRAPHIC] [TIFF OMITTED] T8567.081
    
    [GRAPHIC] [TIFF OMITTED] T8567.082
    
    [GRAPHIC] [TIFF OMITTED] T8567.083
    
    [GRAPHIC] [TIFF OMITTED] T8567.084
    
    [GRAPHIC] [TIFF OMITTED] T8567.085
    
    [GRAPHIC] [TIFF OMITTED] T8567.086
    
    [GRAPHIC] [TIFF OMITTED] T8567.087
    
    [GRAPHIC] [TIFF OMITTED] T8567.088
    
    [GRAPHIC] [TIFF OMITTED] T8567.089
    
    [GRAPHIC] [TIFF OMITTED] T8567.090
    
    [GRAPHIC] [TIFF OMITTED] T8567.091
    
    [GRAPHIC] [TIFF OMITTED] T8567.092
    
    [GRAPHIC] [TIFF OMITTED] T8567.093
    
    [GRAPHIC] [TIFF OMITTED] T8567.094
    
    [GRAPHIC] [TIFF OMITTED] T8567.095
    
    [GRAPHIC] [TIFF OMITTED] T8567.096
    
    [GRAPHIC] [TIFF OMITTED] T8567.097
    
    [GRAPHIC] [TIFF OMITTED] T8567.098
    
    [GRAPHIC] [TIFF OMITTED] T8567.099
    
    [GRAPHIC] [TIFF OMITTED] T8567.100
    
    [GRAPHIC] [TIFF OMITTED] T8567.101
    
    [GRAPHIC] [TIFF OMITTED] T8567.102
    
    [GRAPHIC] [TIFF OMITTED] T8567.103
    
    [GRAPHIC] [TIFF OMITTED] T8567.104
    
    [GRAPHIC] [TIFF OMITTED] T8567.105
    
    [GRAPHIC] [TIFF OMITTED] T8567.106
    
    [GRAPHIC] [TIFF OMITTED] T8567.107
    
    [GRAPHIC] [TIFF OMITTED] T8567.108
    
    [GRAPHIC] [TIFF OMITTED] T8567.109
    
    [GRAPHIC] [TIFF OMITTED] T8567.110
    
    [GRAPHIC] [TIFF OMITTED] T8567.111
    
    [GRAPHIC] [TIFF OMITTED] T8567.112
    
    [GRAPHIC] [TIFF OMITTED] T8567.113
    
    [GRAPHIC] [TIFF OMITTED] T8567.114
    
    [GRAPHIC] [TIFF OMITTED] T8567.115
    
    [GRAPHIC] [TIFF OMITTED] T8567.116
    
    [GRAPHIC] [TIFF OMITTED] T8567.117
    
    [GRAPHIC] [TIFF OMITTED] T8567.118
    
    [GRAPHIC] [TIFF OMITTED] T8567.119
    
    [GRAPHIC] [TIFF OMITTED] T8567.120
    
    [GRAPHIC] [TIFF OMITTED] T8567.121
    
    [GRAPHIC] [TIFF OMITTED] T8567.122
    
    [GRAPHIC] [TIFF OMITTED] T8567.123
    
    [GRAPHIC] [TIFF OMITTED] T8567.124
    
    [GRAPHIC] [TIFF OMITTED] T8567.125
    
    [GRAPHIC] [TIFF OMITTED] T8567.126
    
    [GRAPHIC] [TIFF OMITTED] T8567.127
    
    [GRAPHIC] [TIFF OMITTED] T8567.128
    
    [GRAPHIC] [TIFF OMITTED] T8567.129
    
    [GRAPHIC] [TIFF OMITTED] T8567.130
    
    [GRAPHIC] [TIFF OMITTED] T8567.131
    
    [GRAPHIC] [TIFF OMITTED] T8567.132
    
    [GRAPHIC] [TIFF OMITTED] T8567.133
    
    [GRAPHIC] [TIFF OMITTED] T8567.134
    
    [GRAPHIC] [TIFF OMITTED] T8567.135
    
    [GRAPHIC] [TIFF OMITTED] T8567.136
    
    [GRAPHIC] [TIFF OMITTED] T8567.137
    
    [GRAPHIC] [TIFF OMITTED] T8567.138
    
    [GRAPHIC] [TIFF OMITTED] T8567.139
    
    [GRAPHIC] [TIFF OMITTED] T8567.140
    
    [GRAPHIC] [TIFF OMITTED] T8567.141
    
    [GRAPHIC] [TIFF OMITTED] T8567.142
    
    [GRAPHIC] [TIFF OMITTED] T8567.143
    
    [GRAPHIC] [TIFF OMITTED] T8567.144
    
    [GRAPHIC] [TIFF OMITTED] T8567.145
    
    [GRAPHIC] [TIFF OMITTED] T8567.146
    
    [GRAPHIC] [TIFF OMITTED] T8567.147
    
    [GRAPHIC] [TIFF OMITTED] T8567.148
    
    [GRAPHIC] [TIFF OMITTED] T8567.149
    
    [GRAPHIC] [TIFF OMITTED] T8567.150
    
    [GRAPHIC] [TIFF OMITTED] T8567.151
    
    [GRAPHIC] [TIFF OMITTED] T8567.152
    
    [GRAPHIC] [TIFF OMITTED] T8567.153
    
    [GRAPHIC] [TIFF OMITTED] T8567.154
    
    [GRAPHIC] [TIFF OMITTED] T8567.155
    
    [GRAPHIC] [TIFF OMITTED] T8567.156
    
    [GRAPHIC] [TIFF OMITTED] T8567.157
    
    [GRAPHIC] [TIFF OMITTED] T8567.158
    
    [GRAPHIC] [TIFF OMITTED] T8567.159
    
    [GRAPHIC] [TIFF OMITTED] T8567.160
    
    [GRAPHIC] [TIFF OMITTED] T8567.161
    
    [GRAPHIC] [TIFF OMITTED] T8567.162
    
    [GRAPHIC] [TIFF OMITTED] T8567.163
    
    [GRAPHIC] [TIFF OMITTED] T8567.164
    
                                    

</pre></body></html>
